Memorandum No. D-2010-RAM-007                  May 28, 2010




    Child Development Center at Fort Eustis, Virginia -
                 Recovery Act Project 7
Additional Information
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704
                                   INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                    400 ARMY NAVY DR IVE 

                               ARLINGTON , VIRGINIA 22202-4704 





                                                                            May 28, 2010


MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               COMMANDER, U.S. ARMY CORPS OF ENGINEERS,
               NORFOLK DISTRICT


SUBJECT: 	 Child Development Center at Fort Eustis, Virginia, Recovery Act Project 7 .
           (Memorandum No. D-2010-RAM-007)

We are providing this report for your information and use. We conducted tlus audit in
response to the requirements of Public Law 111-_5, "American Recovery and
Reinvestment Act of2009," February 17,2009: We considered management comments
on a discussion draft of the report when preparing the final report. No additional
comments are required.

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Michael
A. Joseph at (757) 872-4801.


                                             /~J(     <.

                                            Vtz '- Uy,--_:r
                                                              nCi   CWIV)(/
                                             Alice F. Carey            (j
                                             Acting Assistant Inspector General
                                             Readiness, Operations, and Support
Child Development Center 

 at Fort Eustis, Virginia

 Recovery Act Project 7



(Memorandum No. D-2010-RAM-007)
           May 28, 2010
              Memorandum No. D-2010-RAM-007 (Project No. D2009-D000LF-0245.005) May 28, 2010



                                        Results in Brief


What We Did
We determined whether DOD appropriately planned and        received Recovery Act funds consistent with OMB
implemented Public Law 111-5, American Recovery and        guidance, and competed and awarded the task order on a
Reinvestment Act of 2009 (Recovery Act), February 17,      firm fixed-price basis. As a result of our review,
2009 by meeting the requirements in the Recovery Act,      USACE-Norfolk District personnel modified the request
Office of Management and Budget (OMB), Memorandum          for proposal and task order to include all required
M-09-10, “Initial Implementing Guidance for the            Recovery Act FAR clauses, and posted pre-solicitation
American Recovery and Reinvestment Act of 2009,            and award notices. Additionally, USACE-Norfolk
February 18, 2009, and subsequent related guidance.        District personnel ensured that the contractor met the
Specifically, we reviewed the planning, funding, initial   Recovery Act reporting requirements. As a result, DOD
execution, and reporting for the Ft. Eustis Child          had reasonable assurance that use of Recovery Act funds
Development Center (CDC) to determine whether the          were clear and transparent to the public.
efforts of the U.S. Army Corps of Engineers (USACE)-
Norfolk District complied with Recovery Act                What We Recommend
requirements, OMB guidance, the Federal Acquisition        USACE-Norfolk District personnel corrected all
Regulation (FAR), and DOD guidance.                        identified deficiencies during the course of our review.
                                                           Therefore, this report contains no recommendations.
What We Found
USACE-Norfolk District personnel properly planned and      Management Comments
supported the construction of a medium-sized CDC at        The Commander, USACE-Norfolk District, agreed with
Fort Eustis, Virginia, which ensured appropriate use of    our results and conclusions in the discussion draft report.
Recovery Act funds. USACE-Norfolk District personnel       We do not require any additional comments.




                                                                                                                         i
        Table of Contents


Results in Brief …………………………………. i

Objective………………………………………… 1

Recovery Act Background………………………. 2

Project Background……………………………... 3

Results………………………………………....... 4

Conclusions…………………………………….. 13

Scope and Methodology…………………….….. 14

Criteria………………………………………….. 20

Acronyms……………………………………….. 23

                                  Objective

• 	 The primary objective of the audit was to determine whether DOD and its
    Components were planning and implementing the Recovery Act by meeting the
    requirements in the Recovery Act, OMB Memorandum M-09-10, “Initial
    Implementing Guidance for the American Recovery and Reinvestment Act of
    2009,” February 18, 2009, and subsequent related guidance.
• 	 The Recovery Act and OMB guidance require projects to be monitored and
    reviewed. We grouped these requirements in the following four phases:
    (1) planning, (2) funding, (3) execution, and (4) tracking and reporting. For this
    audit, we reviewed the planning, funding, initial execution, and tracking and
    reporting of the CDC Recovery Act project at Fort Eustis, Virginia, to
    determine whether the efforts of the USACE-Norfolk District complied with
    Recovery Act requirements, OMB guidance, the FAR, and DOD implementing
    guidance. See page 14 for a discussion of our scope and methodology.




                                                                                         1
                  Recovery Act Background

The President signed the Recovery Act into law on February 17, 2009. It is an
unprecedented effort to jump-start the economy and create or save jobs.

The purposes of the Recovery Act include the following:
 1) To preserve and create jobs and promote economic recovery.
 2) To assist those most impacted by the recession.
 3) To provide investments needed to increase economic efficiency by spurring
     technological advances in science and health.
 4) To invest in transportation, environmental protection, and other infrastructure that
     will provide long-term economic benefits.
 5) To stabilize State and local government budgets, in order to minimize and avoid
     reductions in essential services and counterproductive state and local tax increases.

“. . . the heads of Federal departments and agencies shall manage and expend the funds
made available in this Act so as to achieve the purposes specified . . . including
commencing expenditures and activities as quickly as possible consistent with prudent
management.”



                                                                                             2
                        Project Background

• 	 This report addresses military construction (MILCON) Project 7, “Child
    Development Center,” valued at $9.6 million.
• 	 The team is also reviewing two other Recovery Act projects at Ft. Eustis, VA,
   and will address the project’s results in a separate DOD Office of Inspector
   General (DOD OIG) report.
• 	 DOD OIG is also performing an audit (Project No. D2009-D000AE-0268.000,
    “Recovery Act-Funded Military Construction of Army Child Development
    Centers,"), to assess the Army's planning of Recovery Act-funded MILCON
    CDCs at six Army installations. These installations include Fort Bragg, North
    Carolina; Hunter Army Airfield, Georgia; Fort Hood, Texas; Fort Belvoir,
    Virginia; Fort Carson, Colorado; and Fort Drum, New York.
• 	 The U.S. Army Audit Agency is also reviewing three Recovery Act projects at
    Ft. Eustis, VA, and will issue a report when results are finalized.



                                                                                    3
                                    Results - Planning


USACE-Norfolk District personnel properly planned and supported the construction
of a medium-sized CDC at Fort Eustis, Virginia, which ensured appropriate use of
Recovery Act funds.
DD Form 1391 “Military Construction Project Data” - Requirements
• 	 USACE-Norfolk District personnel provided support for the medium-sized CDC to support 2,928
    families requiring housing and a civilian population of 3,038 personnel.
• 	 USACE-Norfolk District personnel calculated CDC requirements from the Army Real Property
    Planning and Analysis System (RPLANS) algorithm, which is based on the first method identified
    below.
       USACE Technical Instruction 800-01 and the Army Criteria Tracking System requires the capacity of a facility
        to be based on either one of the following methods:
                The number of married military families receiving direct installation support, multiplied by 20 percent,
                 plus the number of children of single parent military families receiving direct installation support; and
                 2.5 percent of the number of civilian employees assigned, OR
                A needs assessment that includes a survey of the installation military and civilian population and an
                 examination of the installation demographics, to include historical data as well as waiting lists and the
                 unmet demand; projected installation population; changes in mission; and an extrapolation of eligible
                 target users.




                                                                                                                             4
                              Results - Planning 

                                 (continued)

 Using the RPLANS algorithm, USACE-Norfolk District personnel calculated a deficit
  of 212 spaces, which will be met through the construction of a medium-sized CDC.
  According to Army standards for CDCs with children that range in age from 6 weeks
  to 5 years, capacity levels consist of:
      Small (126 child capacity),
      Medium (232 child capacity), and
      Large (338 child capacity).

 In January 2008, the project planner used data produced from the RPLANS algorithm
  for families requiring housing and civilian personnel. FY 2011 data was the furthest
  out year projection at the time the DD Form 1391 was developed. According to Army
  Regulation 608-10, “Child Development Services,” July 15, 1997, data required to
  determine child development construction requirements should be reassessed at a
  minimum of every two years to validate the installation demand for services even if
  construction is not anticipated.

 We determined that the planner was not required to revalidate the project until
  January 9, 2010. Therefore, the construction of a medium-sized CDC was valid.



                                                                                         5
                                     Results – Planning 

                                        (continued)


Economic Analysis
• 	 Based on the results of the economic analysis, the construction of new CDC was a viable option
    that met the project’s objective. The economic analysis considered alternative methods including
    renovating the existing building, using other facilities on Fort Eustis, using off-site resources, and
    leasing other facilities.
Project Cost
• 	 Standard square footage and unit prices for the CDC and the outdoor activity area with equipment
    complied with the Instruction for Parametric Design (Code 3) by the Army Corps of Engineer,
    October 1, 2008; and Programming Administration and Execution System Newsletter No. 3.2.2,
    March 20, 2009. Huntsville Center of Standardization personnel reviewed ENG Form 3086,
    “Current Working Estimates for Budget Purposes.” However, the ENG Form 3086 was not
    approved or certified per guidance from the Assistant Chief of Staff for Installation Management
    and USACE headquarters.

National Environmental Policy Act Study
• 	 USACE personnel provided a Categorical Exclusion. The Environmental Officer and the
    Directorate of Public Works at Fort Eustis completed the study on July 27, 2009.



                                                                                                             6
                                 Results - Funding

USACE-Norfolk District personnel received Recovery Act funds consistent with OMB guidance.

• 	 USACE headquarters distributed Recovery Act funds to USACE-Norfolk District on October 30,
    2009.

• 	 USACE awarded $7.45 million for the CDC on November 5, 2009. The award amount did not
    include contingency costs; supervision, inspection and overhead costs; and design costs.

• 	 Funding authorization documents indicated that a net amount of $8.53 million was distributed for the
    CDC, which included the contract award ($7.45 million), and an estimated $1.1 million in
    contingency costs; supervision, inspection and overhead costs; and design costs.

• 	 The Recovery Act DOD Military Construction Program plan initially listed the project at $9.6
    million, which allows for an estimated $1.1 million ($9.6 million - $8.53 million) in potential bid
    savings. The DOD OIG is also performing an audit (Project D2009-D000AE-0268.000, “Recovery
    Act-Funded Military Construction of Army Child Development Centers"), to assess the Army's
    overall planning of Recovery Act-funded MILCON of CDCs. The resulting report will discuss the
    appropriate use of potential bid savings realized from Recovery Act-funded CDC projects; therefore,
    this report does not include a recommendation on this issue.




                                                                                                           7
                    Results – Project Execution


USACE-Norfolk District personnel properly competed the CDC project; however,
they did not include any of the required Recovery Act FAR clauses in the pre-
solicitation or the task order.

• 	 USACE headquarters personnel provided USACE-Norfolk District contracting
    personnel with a Recovery Act checklist that included specific items to include in their
    contracting process. The checklist identified the Recovery Act FAR clauses necessary
    for solicitations and awards.

• 	 The original request for proposal did not include the required Recovery Act FAR
    clauses. As a result of our review, USACE-Norfolk District personnel issued an
    amendment to the request for proposal on August 18, 2009, which included all of the
    required clauses.




                                                                                               8
                   Results – Project Execution 

                           (continued)

•   USACE-Norfolk District personnel competed the CDC project among small
    business contractors that included three bidders. On November 5, 2009, the
    USACE-Norfolk District contracting office awarded the winning bidder a firm
    fixed-price basis task order for $7.45 million on a multiple award task order
    contract.

• 	 USACE-Norfolk District personnel issued task order 0004 on November 5, 2009,
    against contract W9123608D0070 for construction of the Fort Eustis CDC.

• 	 Despite the modification to the request for proposal, the task order did not include
    any of the required Recovery Act FAR clauses.
As a result, the contractor was not required to comply with Recovery Act specific
requirements.

Management corrective action:
• 	 As a result of discussion draft briefings, USACE-Norfolk District personnel 

    modified the task order to include the required Recovery Act FAR clauses.




                                                                                           9
                           Results – Project Execution 

                                   (continued)

USACE-Norfolk District personnel did not ensure that the use of Recovery Act funds
were clear and transparent to the public.
 • 	 USACE-Norfolk District personnel did not post a pre-solicitation or award notice to the Federal
     Business Opportunities (FBO) Web site in accordance with the FAR and DOD Acquisition,
     Technology, and Logistics (AT&L) Memorandum, “Revised Posting and Reporting Requirements
     for the American Recovery and Reinvestment Act of 2009,” August 19, 2009. The Recovery Act
     checklist from USACE headquarters also identified the requirement to include pre-solicitation and
     award announcements on FBO.

 • 	 DOD AT&L Memorandum provides additional instruction on posting sources sought, pre- 

     solicitation, and award notices as well as guidance regarding contract action reports.


 • 	 Contracting personnel stated that multiple award task order contract solicitations are not posted on
     FBO because they received numerous proposals from ineligible contractors. This is not consistent
     with the FAR and AT&L memorandum.
As a result, DOD did not have reasonable assurance that the use of Recovery Act
funds was clear and transparent to the public.



                                                                                                            10
                   Results –Project Execution 

                           (continued)

Management corrective action:
• As a result of discussion draft briefings:
     USACE-Norfolk District personnel publicized the pre-solicitation contract action
         in FBO for the CDC in accordance with the FAR and AT&L Memorandum.

      The USACE-Norfolk District personnel publicized an award notice in FBO;
       however, the award notice was not in full compliance with the FAR and the
       AT&L Memorandum. Although the USACE-Norfolk District personnel posted
       the award notice to include a verbatim synopsis as required by the AT&L
       Memorandum, they did not identify the project as “Recovery” in the title section
       of the posting.

      Since the synopsis identifies the project as a Recovery Act project, we believe
       the management action meets the intent of the memorandum; due to the
       immateriality of this deficiency, we are not recommending further corrective
       action.




                                                                                          11
           Results – Tracking and Reporting


USACE-Norfolk District personnel ensured that the contractor met the
Recovery Act reporting requirements.

 • The contractor, Homeland Contracting Corporation, reported the number of
   jobs and the total value for the project in the fourth quarter of 2009 in
   https://www.federalreporting.gov/.




                                                                               12
                                         Conclusions

• USACE-Norfolk District personnel properly planned and supported the construction of a medium-sized
  CDC at Fort Eustis, Virginia, which ensured appropriate use of Recovery Act funds.

• 	 USACE-Norfolk District personnel received Recovery Act funds consistent with OMB guidance.

• 	 USACE-Norfolk District personnel properly competed the CDC project; however, they did not include any
    of the required Recovery Act FAR clauses in the pre-solicitation or task order. As a result of our review,
    USACE-Norfolk District personnel took corrective action and modified the pre-solicitation and task order
    to include all required Recovery Act FAR clauses.

• 	 USACE-Norfolk District personnel did not ensure that the use of Recovery Act funds were clear and
    transparent to the public. As a result of discussion draft report briefings, USACE-Norfolk District
    personnel took corrective action and publicized the pre-solicitation contract action in FBO for the CDC in
    accordance with the FAR and AT&L Memorandum and publicized an award notice in FBO.

• 	 USACE-Norfolk District personnel ensured that the contractor met the Recovery Act reporting
    requirements.

• 	 As a result of management action during the audit, this report makes no recommendations.




                                                                                                                 13
                     Scope and Methodology


We conducted this audit from June 2009 through March 2010 in accordance with
generally accepted government auditing standards. Generally accepted
government auditing standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our conclusions based on our audit
objectives.




                                                                                14
                       Scope and Methodology 

                             (continued)

To review DOD’s implementation of the Plans and implementation of the Recovery
Act, we audited the planning, funding, and initial project execution and reporting of
Recovery Act projects to ensure USACE-Norfolk District personnel efforts complied
with the Recovery Act requirements, OMB guidance, the FAR, and DOD implementing
guidance. Specifically, we determined whether:

  • 	 the selected projects were adequately planned to ensure the appropriate use of
      Recovery Act funds (Planning);
  • 	 funds were awarded and distributed in a prompt, fair, and reasonable manner
      (Funding);
  • 	 contracts awarded were transparent, competed, and contained required Recovery
      Act FAR clauses (Project Execution); and
  • 	 recipients’ use of funds was transparent to the public and the benefits of the funds
      were clearly, accurately, and timely reported (Reporting).




                                                                                             15
                       Scope and Methodology 

                             (continued)

•	   Congress appropriated approximately $12 billion of Recovery Act funds to
     DOD. The DOD manages $7.4 billion in the following programs: Energy
     Conservation Investment; Facilities Sustainment, Restoration, and
     Modernization; Homeowners Assistance; MILCON; and Near-Term
     Energy-Efficient Technologies. The U.S. Army Corps of Engineers
     manages $4.6 billion for civil and water projects.
•	   The Recovery Act divides the approximately $12 billion among 32 DOD
     and USACE line items of appropriations. OMB Memorandum M-09-10
     requires the DOD to develop program plans for each of the six programs
     listed above. Each plan identifies the projects funded by the Recovery Act
     within that program.
•	   The Army received $80 million in MILCON funding to build CDCs.
•	   This report addresses MILCON Project 7, “Child Development Center,”
     valued at $9.6 million.


                                                                                  16
                                 Scope and Methodology 

                                       (continued)

• 	 Locations contacted or visited:
        Directorate of Public Works Fort Eustis, Virginia
        USACE-Norfolk District, Virginia
•   Documents/records reviewed:
       DOD AT&L Memorandum, “Revised Posting and Reporting Requirements for the American Recovery and
         Reinvestment Act of 2009,” August 19, 2009
       Federal Acquisition Regulation Subpart 5.7, “Publicizing Requirements Under ARRA”
       Unified Facilities Criteria (UFC) 4-470-14, “Design: Child Development Centers,” August 1, 2002
       Army Regulation 608-10, “Child Development Services,” July 15, 1997
       Assistant Chief of Staff for Installation Management (ACSIM) Memorandum, “Army Standard for Child
         Development Centers,” March 12, 2008
       USACE Technical Instructions Design Criteria (TI 800-01), Appendix G, “Child Development Centers,”
         July 20, 1998
       Summary Report of the Planning Charrette for the CDC Fort Eustis, Virginia by USACE-Norfolk District,
         March 24, 2008
       DD Form 1391, “Military Construction Project Data”
       DD Form 1155, “Order for Supplies or Services”
       Cost Estimates
       Funding Authorization Documents
       RPLANS CDC Allowances
       Project files for requirements, justifications, and funding documentation
       Contracting documentation for contract W9123608D0070 delivery order 0004



                                                                                                                17
                         Scope and Methodology 

                               (continued)

Use of Technical Assistance
• 	 Before selecting DOD Recovery Act projects for audit, the Quantitative Methods and
    Analysis Division of the DOD Office of Inspector General analyzed all DOD agency-
    funded projects, locations, and contracting oversight organizations to assess the risk of
    waste, fraud, and abuse associated with each. We selected most audit projects and
    locations using a modified Delphi technique, which allowed us to quantify the risk
    based on expert auditor judgment, and other quantitatively developed risk indicators.
    We used information collected from all projects to update and improve the risk
    assessment model. We selected 83 projects with the highest risk rankings; auditors
    chose some additional projects at the selected locations.

• 	 We did not use classical statistical sampling techniques that would permit generalizing
    results to the total population because there were too many potential variables with
    unknown parameters at the beginning of this analysis. The predictive analytic
    techniques employed provided a basis for logical coverage not only of Recovery Act
    dollars being expended, but also of types of projects and types of locations across the
    Military Services, Defense agencies, State National Guard units, and public works
    projects managed by USACE.


                                                                                                18
                            Scope and Methodology 

                                  (continued)

Use of Computer-Processed Data
• 	 We relied on computer-processed data from the FBO Web site, the Programming Administration and
    Execution System, and the RPLANS. FBO is a single, government-wide point-of-entry for Federal
    government procurement opportunities. The Programming Administration and Execution System is
    designed to help engineers prepare and recall DD Forms 1391, and it includes a module for the
    ENG Form 3086. RPLANS allows users at the installation, Installation Management Command
    Region, Army Commands and Department of the Army level to correlate data about real property
    assets, installation force structure and populations, and facility allowances and requirements. We
    compared data generated by each system with the DOD Program Plans, information from USACE-
    Norfolk District personnel, and various Army and construction guidance to support the audit
    conclusions. We determined that the data were sufficiently reliable for the purposes of our report.

Prior Coverage
• 	 The Government Accountability Office, the Department of Defense Inspector General, and the
    Military Departments have issued reports and memoranda discussing DOD projects funded by the
    Recovery Act. You can access unrestricted reports at http://www.recovery.gov/accountability.




                                                                                                          19
                                       Criteria


Criteria for planning and implementing the Recovery Act continue to change as OMB issues
additional guidance, and DOD and the Components issue their implementation guidance.

•U.S. House of Representatives Conference Committee Report 111-16, “Making Supplemental
Appropriations for Job Preservation and Creation, Infrastructure Investment, Energy Efficiency and
Science, Assistance to the Unemployed, and State and Local Fiscal Stabilization, for the Fiscal
Year Ending September 30, 2009, and for Other Purposes,” February 12, 2009

•Public Law 111-5, “American Recovery and Reinvestment Act of 2009,” February 17, 2009

•OMB Memorandum M-09-10, “Initial Implementing Guidance for the American Recovery and
Reinvestment Act of 2009,” February 18, 2009

•OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and Investment Act of
2009 Appropriations,” February 25, 2009

•White House Memorandum, “Government Contracting,” March 4, 2009




                                                                                                     20
                                                          Criteria 

                                                        (continued)

• 	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act Funds,” March 20, 2009

• 	 Federal Acquisition Circular 2005-32, March 31, 2009

• 	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the American Recovery and Reinvestment
    Act of 2009,” April 3, 2009 1

• 	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications With Registered Lobbyists About
    Recovery Act Funds,” April 7, 2009

• 	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal Funding Accountability and
    Transparency Act (FFATA),” June 1, 2009

• 	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use of Funds Pursuant to the American
    Recovery and Reinvestment Act of 2009,” June 22, 2009 2
1   Document provides Government-wide guidance for carrying out programs and activities enacted in the Recovery Act. The guidance
    states that the President’s commitment is to ensure that public funds are expended responsibly and in a transparent manner to further job
    creation, economic recovery, and other purposes of the Recovery Act.
2   Document provides Government-wide guidance for carrying out the reporting requirements included in section 1512 of the Recovery Act.
    The reports will be submitted by recipients beginning in October 2009 and will contain detailed information on the projects and activities
    funded by the Recovery Act.




                                                                                                                                                 21
                                                          Criteria 

                                                        (continued)

• 	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications with Registered
    Lobbyists About Recovery Act Funds,” July 24, 2009

• 	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,” September 11,
    2009

• 	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing Contractor Reports
    on the Use of Recovery Act Funds in Accordance with FAR Clause 52.204-11,” September 30,
    2009 2

• 	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery and Reinvestment
    Act – Data Quality, Non-Reporting Recipients, Reporting of Job Estimates,” December 18, 2009 2

• 	 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery and Reinvestment
    Act,” March 22, 2010 2
2   Document provides Government-wide guidance for carrying out the reporting requirements included in section 1512 of the Recovery Act.
    The reports will be submitted by recipients beginning in October 2009 and will contain detailed information on the projects and activities
    funded by the Recovery Act.




                                                                                                                                                 22
                           Acronyms


AT&L         Acquisition, Technology & Logistics
CDC          Child Development Center
FAR          Federal Acquisition Regulation
FBO          Federal Business Opportunities
MILCON       Military Construction
OMB          Office of Management and Budget
Recovery Act American Reinvestment and Recovery Act of 2009
RPLANS       Real Property Planning and Analysis System
USACE        U.S. Army Corps of Engineers




                                                              23
